                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106


November 9, 2010

Report Number: A-07-10-01083

Ms. Joan Henneberry
Executive Director
Colorado Department of Health Care Policy and Financing
1570 Grant Street
Denver, CO 80203

Dear Ms. Henneberry:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Colorado Medicaid Payments for Home Health
Agency Claims. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Chris Bresette, Audit Manager, at (816) 426-3591 or through email at
Chris.Bresette@oig.hhs.gov. Please refer to report number A-07-10-01083 in all
correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Joan Henneberry

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




   REVIEW OF COLORADO
  MEDICAID PAYMENTS FOR
HOME HEALTH AGENCY CLAIMS




                      Daniel R. Levinson
                       Inspector General

                       November 2010
                       A-07-10-01083
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Colorado, the Department of Health Care
Policy and Financing (State agency) administers the State’s Medicaid program in accordance
with its CMS-approved State plan.

A home health agency (HHA) provides nursing services, home health aide services, and therapy
services to Medicaid recipients. State regulations at 10 Code of Colorado Regulations (CCR)
2505-10, section 8.523.11, specify that HHA services are eligible for reimbursement under
Medicaid only when the services are provided under a physician-signed plan of care and are
medically necessary. Further, according to 10 CCR 2505-10, section 8.130.2, each provider
shall maintain legible records necessary to disclose the nature and extent of goods and services
provided to clients, records which fully substantiate or verify claims submitted for payment.
HHAs submit claims to the State agency in order to receive compensation for the services they
provide to Medicaid recipients.

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities, and to ensure that it pays medical claims pursuant to Federal
and State requirements, the State agency’s Medicaid Quality Assurance Unit periodically
conducts post-payment reviews of selected HHA services. The State agency then submits to
CMS its Medicaid expenditures for the Federal share of its claimed costs.

For the period October 1, 2008, through September 30, 2009, the State agency claimed HHA
services totaling approximately $158.4 million (approximately $95.4 million Federal share) for
129 HHA providers. For this review, we focused on 127 HHA providers throughout the State of
Colorado that claimed a total of approximately $119.9 million (approximately $72.2 million
Federal share) for HHA services.

OBJECTIVE

Our objective was to determine whether the State agency claimed costs for HHA services in
accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency claimed some costs for HHA services that were not in accordance with Federal
or State requirements. Our review of the 100 beneficiary-months (a beneficiary-month
represents a payment for one beneficiary for one month) in our sample showed that 14



                                                i
beneficiary-months had errors (2 beneficiary-months had two types of errors) totaling $6,552
($4,020 Federal share) of improper Medicaid reimbursement. The errors included 10
beneficiary-months with unsupported services, 4 beneficiary-months with unauthorized services,
1 beneficiary-month with a billing error, and 1 beneficiary-month with insufficient
documentation.

Based on the results of our sample, we estimated that the State agency improperly claimed
$818,336 ($494,040 Federal share) for HHA services that did not comply with Federal and State
requirements. Although the State agency periodically performed post-payment reviews to ensure
that payments were appropriate for HHA claims, these reviews did not always detect the
overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $494,040 to the Federal Government for unallowable HHA services claims and

   •   continue to strengthen internal controls to detect and recover improper payments for
       HHA services.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with our first
recommendation because it disagreed with our sampling methodology. The State agency agreed
to refund the Federal share of unallowable services identified from the sampled items ($4,020).
However, the State agency did not concur with our recommendation that it refund the amount
that we estimated to be in error ($494,040) because our sample “… did not appear to be
representative of the population ….”

The State agency concurred with our second recommendation and described corrective actions
that it planned to take.

The State agency’s comments appear in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s written comments caused us to change our findings or our
recommendations. Statistical sampling depends on the principle of random selection. Random
sampling eliminates personal bias and subjective considerations.

We completed this review in accordance with our longstanding policies with regard to statistical
sampling. The U.S. Department of Health & Human Services, Departmental Appeals Board, has
supported the Office of Inspector General’s use of statistical sampling to calculate disallowances
in accordance with these policies. (Details of our sampling and projection methodologies,




                                                ii
including our use of random sample selection, appear in Appendixes A and B.) Therefore, we
continue to recommend that the State agency refund the entire $494,040 (Federal share) for
unallowable HHA services claims.




                                             iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicaid Program and Home Health Agency Services ......................................1
              Colorado Department of Health Care Policy and Financing ...............................1
              Colorado Home Health Agency Services ............................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

          UNALLOWABLE HOME HEALTH AGENCY SERVICES....................................... 4
              Unsupported Services ......................................................................................... 4
              Unauthorized Services ........................................................................................ 4
              Billing Error ........................................................................................................ 5
              Insufficient Documentation ................................................................................ 5

          UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT ........................... 5

          RECOMMENDATIONS .................................................................................................5

          STATE AGENCY COMMENTS ....................................................................................6

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................6

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iv
                                      INTRODUCTION

BACKGROUND

Medicaid Program and Home Health Agency Services

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Section 1905 of the Act authorizes State Medicaid agencies to provide home health agency
(HHA) services to Medicaid recipients. Pursuant to 42 CFR § 440.70, these services include
skilled nursing services, home health aide services, and medical supplies and equipment. In
addition, the HHA services may also include physical therapy, occupational therapy, or speech
pathology and audiology services.

Colorado Department of Health Care Policy and Financing

In Colorado, the Department of Health Care Policy and Financing (State agency) administers the
State’s Medicaid program. During the period October 1, 2008, through September 30, 2009 (our
audit period), the State agency paid approximately 230,000 Medicaid claims for HHA services.
We grouped these claims into 79,860 beneficiary-months (a beneficiary-month represents a
payment for one beneficiary for one month).

The responsibilities of the State agency include processing and monitoring HHA claims. As part
of its monitoring responsibilities, and to ensure that it pays medical claims pursuant to Federal
and State requirements, the State agency’s Medicaid Quality Assurance Unit periodically
conducts post-payment reviews of selected HHA services.

On a quarterly basis, the State agency submits to CMS its standard Form CMS-64, Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program (CMS-64 report), to
summarize, by category of service, Medicaid expenditures for Federal reimbursement. CMS
reimburses the State agency the Federal share of the State agency’s claimed costs, based on the
Federal medical assistance percentage (FMAP). The State of Colorado’s FMAP for our audit
period was originally 50.00 percent. The American Recovery and Reinvestment Act of 2009,
P.L. No. 111-5 (Recovery Act), enacted February 17, 2009, authorized the States to receive a
higher FMAP. For the period October 1, 2008, through March 31, 2009, the State of Colorado’s
FMAP was increased to 58.78 percent under the provisions of the Recovery Act. For the period
April 1, 2009, through September 30, 2009, the State of Colorado’s FMAP was increased to
61.59 percent under these same provisions.




                                                1
Colorado Home Health Agency Services

State regulations at 10 Code of Colorado Regulations (CCR) 2505-10, section 8.523.11, require
that HHA services be provided under a plan of care as ordered and signed by a physician.
Specifically, pursuant to Federal regulations at 42 CFR § 484.18(a), the plan of care must cover
the types of services required and the frequency of visits.

HHAs submit claims to the State agency in order to receive compensation for the services they
provide to Medicaid recipients. According to 10 CCR 2505-10, section 8.528.11, reimbursement
for the services of nursing, physical therapy, occupational therapy, and speech therapy is made
on a per-visit basis, whereby a visit is defined as the length of time required to provide the
needed care, up to a maximum of two and one-half hours. Home health aide services are
reimbursed through the use of two billing units: Basic Units (the first hour of the visit) and, for
visits that last longer than one hour, Extended Units (increments of fifteen minutes up to one-half
hour). In addition, pursuant to 10 CCR 2505-10, section 8.523.11, HHA services are eligible for
reimbursement under Medicaid only when the services are provided under a physician-signed
plan of care and are medically necessary. Further, according to 10 CCR 2505-10, section
8.130.2, each provider shall maintain legible records necessary to disclose the nature and extent
of goods and services provided to clients, records which fully substantiate or verify claims
submitted for payment. HHAs submit claims covering a period of time to the State agency; each
claim may contain multiple types of service.

For the period October 1, 2008, through September 30, 2009, the State agency claimed HHA
services totaling approximately $158.4 million (approximately $95.4 million Federal share) for
129 HHA providers. We reviewed the amounts claimed for 2 of these 129 HHA providers
(Personal Assistance Services of Colorado (approximately $28.5 million; approximately
$17.2 million Federal share) and Professional Pediatric Home Care, Inc. (approximately
$10.0 million; approximately $6.0 million Federal share)), in separate audits (report numbers
A-07-10-01087 and A-07-10-01088, respectively).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed costs for HHA services in
accordance with Federal and State requirements.

Scope

We reviewed claims for 127 HHA providers throughout the State of Colorado totaling
$119,856,383 ($72,189,464 Federal share) received from the State agency as reimbursement for
the period October 1, 2008, through September 30, 2009.

We did not review the State agency’s overall internal control structure because our objective did
not require us to do so. We limited our internal control review to those controls related directly
to processing and monitoring HHA claims.



                                                2
We conducted our fieldwork from February through June 2010 at the State agency in Denver,
Colorado, and at the provider locations in our simple random sample. We did not review the
sampled claims to determine medical necessity.

Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws, regulations, and other requirements regarding Medicaid
       reimbursement for HHA services,

   •   interviewed officials at the State agency to gain an understanding of how they administer
       and monitor the Medicaid HHA program;

   •   reconciled the State agency’s electronic claims data to the CMS-64 reports for the period
       October 1, 2008, through September 30, 2009;

   •   grouped the claims data for the 127 HHA providers into 66,784 beneficiary-months;

   •   selected a simple random sample of 100 HHA beneficiary-months from 53 HHA
       providers in the State of Colorado, totaling $216,952 ($130,615 Federal share);

   •   obtained and reviewed the supporting documentation for each sampled beneficiary-month
       to determine the allowability of the services claimed (each beneficiary-month may
       contain multiple types of services);

   •   determined the amount in error for each beneficiary-month with unallowable services;
       and

   •   provided the results of our review and discussed those results with State officials on
       June 21, 2010.

Appendixes A and B contain details of our sampling and projection methodologies.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency claimed some costs for HHA services that were not in accordance with Federal
or State requirements. Our review of the 100 beneficiary-months in our sample showed that 14
beneficiary-months had errors (2 beneficiary-months had two types of errors) totaling $6,552
($4,020 Federal share) of improper Medicaid reimbursement. The errors included 10
beneficiary-months with unsupported services, 4 beneficiary-months with unauthorized services,


                                                3
1 beneficiary-month with a billing error, and 1 beneficiary-month with insufficient
documentation.

Based on the results of our sample, we estimated that the State agency improperly claimed
$818,336 ($494,040 Federal share) for HHA services that did not comply with Federal and State
requirements.

UNALLOWABLE HOME HEALTH AGENCY SERVICES

Unsupported Services

The CMS State Medicaid Manual, section 2500.2(A), requires that the State agency “[r]eport
only expenditures for which all supporting documentation, in readily reviewable form, has been
compiled and which is immediately available when the claim is filed.” (Emphasis in original.)

According to 10 CCR 2505-10, section 8.130.2, each provider shall maintain legible records
necessary to disclose the nature and extent of goods and services provided to clients, records
which fully substantiate or verify claims submitted for payment.

For 10 of the 100 sampled beneficiary-months, the State agency claimed costs for HHA services
for which it did not maintain supporting documentation pursuant to Federal and State
requirements. For 5 of these 10 beneficiary-months, home health agencies were unable to
provide us with any documentation to support the services billed. For the other five beneficiary-
months, the provider billed for at least one unit of service in excess of what was supported in the
visit notes; thus the supporting documentation did not fully substantiate or verify claims
submitted for payment.

Unauthorized Services

Pursuant to 42 CFR § 440.70(a), HHA services are provided to a recipient at his or her place of
residence under a physician’s orders as a part of a written plan of care. Further, 42 CFR
§ 484.18(a) states that the plan of care must cover the types of services required and the
frequency of visits.

According to 10 CCR 2505-10, section 8.523.11, HHA services are eligible for reimbursement
under Medicaid only when services are provided under a plan of care. A plan of care is a
coordinated plan developed by the HHA as ordered by the attending physician for provision of
services to a client at his or her residence, and periodically reviewed and signed by the physician.

For 4 of the 100 sampled beneficiary-months, the State agency did not claim some costs pursuant
to these Federal and State requirements. Specifically, the State agency paid for HHA services
for which the frequency of the services provided exceeded the limits prescribed on the recipient’s
plan of care.

For each of these four beneficiary-months, the HHA billed either skilled nursing visits or home
health aide Extended Units that were in excess of the limit prescribed on the written plan of care.



                                                 4
Billing Error

According to 10 CCR 2505-10, section 8.130.2, each provider shall maintain legible records
which fully substantiate or verify claims submitted for payment. The State agency’s fee
schedule for private duty nursing identifies both an hourly payment rate for visits in which a
service is performed by a registered nurse (RN) and a lower payment rate for visits in which a
service is performed by a licensed practical nurse (LPN).

For 1 of the 100 beneficiary-months, the State agency did not claim some costs for HHA services
pursuant to the State agency’s fee schedule. For this beneficiary-month, a provider billed and
was paid for 10 hours of LPN service at the higher RN payment rate.

Insufficient Documentation

According to 10 CCR 2505-10, section 8.130.2, each provider shall maintain legible records
which fully substantiate or verify claims submitted for payment. Further, 10 CCR 2505-10,
section 8.526.19(C)(1) states: “Acceptable documentation for each visit billed shall include the
nature and extent of services, the care provider’s signature, the month, day, year, and the exact
time in and out of the client’s home.”

For 1 of the 100 sampled beneficiary-months, the State agency did not claim some costs for
HHA services pursuant to State requirements.

For this beneficiary-month, the visit notes for the home health aide services did not include the
exact time in and out of the client’s home. Therefore, the documentation did not fully
substantiate or verify the claim submitted for payment.

UNALLOWABLE CLAIMS FOR FEDERAL REIMBURSEMENT

Of the 100 HHA beneficiary-months in our sample, 14 had errors totaling $6,552 ($4,020
Federal share) of improper Medicaid reimbursement. Based on the results of our sample, we
estimated that the State agency improperly claimed $818,336 ($494,040 Federal share) for HHA
services that did not comply with Federal and State requirements. Although the State agency
periodically performed post-payment reviews to ensure that payments were appropriate for HHA
claims, these reviews did not always detect the overpayments.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $494,040 to the Federal Government for unallowable HHA services claims and

   •   continue to strengthen internal controls to detect and recover improper payments for
       HHA services.




                                                 5
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency partially concurred with our first
recommendation because it disagreed with our sampling methodology. The State agency agreed
to refund the Federal share of unallowable services identified from the sampled items ($4,020).
However, the State agency did not concur with our recommendation that it refund the amount
that we estimated to be in error ($494,040) because our sample “… did not appear to be
representative of the population since the average cost of a beneficiary month from the sample
was over 20% higher than the average cost of a beneficiary month for the population.”

The State agency concurred with our second recommendation and described corrective actions
that it planned to take.

The State agency’s comments appear in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Nothing in the State agency’s written comments caused us to change our findings or our
recommendations. Statistical sampling depends on the principle of random selection. Random
sampling eliminates personal bias and subjective considerations.

We completed this review in accordance with our longstanding policies with regard to statistical
sampling. The U.S. Department of Health & Human Services, Departmental Appeals Board, has
supported the Office of Inspector General’s use of statistical sampling to calculate disallowances
in accordance with these policies. (Details of our sampling and projection methodologies,
including our use of random sample selection, appear in Appendixes A and B.) Therefore, we
continue to recommend that the State agency refund the entire $494,040 (Federal share) for
unallowable HHA services claims.




                                                6
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of beneficiary-months (a beneficiary-month represents a payment for
one beneficiary for one month) representing home health agency (HHA) services paid for the
period October 1, 2008, through September 30, 2009. The population includes only those
beneficiary-months that were not sampled as part of reviews A-07-10-01087 or A-07-10-01088.

SAMPLING FRAME

The sampling frame is a database of beneficiary-months consisting of 66,784 beneficiary-months
totaling $119,856,383 ($72,189,464 Federal share) for home health services paid during the
period October 1, 2008, through September 30, 2009.

SAMPLE UNIT

The sampling unit is one beneficiary-month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units (beneficiary-months).

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the unallowable payments for home health services. Because
the Federal medical assistance percentage rate varied from quarter to quarter and was also
increased under the provisions of the American Recovery and Reinvestment Act of 2009, P.L.
No. 111-5, we made separate estimations for the total unallowable costs and for the Federal share
of those unallowable costs.
                   APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                     SAMPLE RESULTS

                                                           Number With          Value of
                                 Sample      Value of      Unallowable         Unallowable
Frame Size       Frame Value      Size        Sample        Payments            Payments
  66,784         $119,856,383      100       $216,952          14                $6,552

                      ESTIMATES OF UNALLOWABLE PAYMENTS
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                                                 Total Estimated
                            Total Estimated                    Unallowable Services
                          Unallowable Services                   (Federal Share)
Point estimate               $    4,375,748                       $    2,684,662
Lower limit                  $      818,336                       $      494,040
Upper limit                  $    7,993,160                       $    4,875,284
                                                                                                                    Page 1 of2


               APPENDIX C: STATE AGENCY COMMENTS 





                                 COLORADO DEPARTMENT OF HEALTH CARE POLICY

                     1570 Grant Street, Denv,"" CO 80203-1818 • (303) 866·2993. (03) 866·4411 Fax. 30.3· 866-4411
                      mil Ritter, Jr., Governor ~ Joan HEnntcenv, Executive Director




October 22, 2010




Mr. Patrick Cogley, Regional Inspector General
Office of the Inspector General
Ofliee of Audit Services
601 E. 12th Street, Room 0429
Kansas City, MO 64106

Re: Audit #1\-07-10··01083

Dear Mr. Cogley:

Please find the Department of Health Care Policy and Financing's responses to the above­
referenced audit report entitled, Review of Colorado Medicaid Payments for Home Health
Agency Claims dated September 2010.

If you have any questions or comments, please fee! free to contact me at 303-866 .. 2590 or
laurie.simon@state.co.us.

Sincerely,



Laurie Simon
Aud.it Coordinator


\las

       cc: 	   Greg Tanner 

               Nancy Downes 

                                                                                            Page 2 of2




                 Department of Health Care Policy and Financing's 

                             Initial Responses to the 

                     Depal·tment of Health & Human Services 

                            Office of Inspector Genera! 

      Review of Colorado Medicaid Payments for Home Health Agency Claims 

                         Control Number A-07-10-01083 

                                  September 2010 



RECOMMENDATIONS

We recommend that the State Agency:

       Refund $494,040 to the Federal Government for unallowable HHA services
       claims; and

       Con til/lie to strengthen intertlal controls to detect alUi recover improper
       payments for HHA services.

Response 10 recommendation 1: Partial Concurrence.

The Department agrees to rejimd the federal financial participation for the actufll
amount of unallowable HHA services claims as determined by this audit. The total
actual amount of unallowable HHA services claims as determined by this audit was
$6,522 and the federal share of this amount was $4,020. This $4,020 in federal share
will be refimded on the CMS-64 in the quarter in which this report is finalized and
submitted to the Department asfina!.

Based on the Department 's review, the sample chosen for review did not appear to be
representative of the population since the average cost of a beneficiCIIY month from the
sample was over 20% higher than the average cost of a beneficiary month for the
population.

Respollse to recommendation 2: Concur

The Department constantly strives for improvement therefore our Program Integrity
Section will assign quarterly Home Health Agency record reviews 10 the Colorado
RecovefY Audit Contractor (RAC), when contracted to ensure that services billed are
documented in addition to monitoring claims submittedfor Medicare I Medicaid eligible
clients when Medicare should be primary payer and Medicaid payer of last resort: In
addition, Program Integrity and the RAC will share responsibility for reviewing home
health services when clients are receiving hospice care, admitted 10 the hospital and for
credit balances when providers do not know who to return money to ,vhen a third party
paid.




                                         I of I
